                                           UNITED STATES DEPARTMENT OF EDUCATION 

                                                OFFICE OF INSPECTOR GENERAL 

                                                                      REGION V 

                                                              III NORTH CANAL. SUITE 940 

                                                                CHICAGO. ILLINOIS 60606 


                                                                    FAX: (312) 353-0244
     Audit                                                                                                                                      Investigation
(312) 886-6503                                                                                                                                 (312) 353-7891


                                                                                                                      OCT 14 2003
                                                                                        Control Number ED-OIG/AOS-D0023


                 Sister Judy Bisignano, Ed.D.
                 Aztlan Academy
                 3372 S. 6th Avenue
                 Tucson, AZ 85713

                 Dear Sister Bisignano:

                 This Final Audit Report presents the results of our audit of the Aztlan Academy's
                 (Academy) use of U.S. Department of Education (ED) funds for the period July 1,2001,
                 through June 30, 2002 (2002 fiscal year). The objective of our audit was to determine if
                 the Academy expended ED funds according to law and applicable regulations.

                 For the 2002 fiscal year, we could not determine whether the Academy expended ED
                 funds in accordance with the law and applicable regulations. The Academy received
                 $150,000 in Public Charter Schools Program (PCSP) grant funds for the 2002 fiscal year.
                 However, the Academy did not provide us with (1) complete and accurate accounting
                 records that fully showed how it used the PCSP funds and (2) documentation sufficient to
                 support $148,440 of the $150,000 received. We recommend that the Chief Financial
                 Officer (CFO), Office of the Chief Financial Officer, in conjunction with the Deputy
                 Under Secretary for the Office of Innovation and Improvement (011), instruct the
                 Academy to refund $148,440 to ED. We also recommend that the CFO and Deputy
                 Under Secretary instruct the Academy to develop and implement procedures to (a)
                 reconcile, on a regular basis, the amount of PCSP funds received with the amount spent;
                 and (b) ensure it maintains documentation sufficient to support its use of all PCSP funds.

                 We provided a draft of this report to the Academy. However, the Academy did not
                 provide us with comments.

                                                                   AUDIT RESULTS

                 Finding No.1 The Academy Cannot Support Its Use of $148,440 in PCSP Funds

                 The Academy did not provide (1) complete and accurate accounting records that fully
                 showed how it used PCSP funds and (2) documentation that was sufficient to support its
                 use of$148,440 1 in PCSP funds. For the 2002 fiscal year, the Academy received


                 1   $150,000 received less $1,560 in expenses for which we received sufficient supporting documentation.



                         Our mission Is to promote the efficiency, effectiveness, and integrity of the Department's programs and operations.
Final Audit Report                                                                     ED-OIG/A05-D0023


$150,000 in PCSP funds. However, when we asked for records showing how the
Academy used the PCSP funds, the Academy provided accounting records that showed
only $67,389 was charged to the PCSP grant. When we informed the Academy that its
records were not sufficient to show how it used all its PCSP funds, the Academy’s
Director informed us that the original records we were provided did not include all the
expenses that should have been charged to the PCSP grant for the 2002 fiscal year. The
revised accounting records Academy officials provided now show that the Academy
charged $131,984 to the PCSP grant.

We judgmentally2 selected 6 expenses totaling $28,462 from the $67,389 in expenses
shown in the accounting records we were originally provided. We asked Academy
officials to provide us with documentation such as purchase orders, invoices, and
canceled checks supporting its use of PCSP funds. The documentation the Academy
provided was sufficient to support its use of only $1,560. Because the Academy only
provided sufficient supporting documentation for one expense totaling $1,560, we asked
Academy officials to provide us with accounting records and related supporting
documentation for $148,440 in PCSP funds it received for the 2002 fiscal year. The
Academy failed to provide the documentation.

According to 34 C.F.R. § 75.730,3 direct grant recipients are required to “keep records
that fully show: (a) The amount of funds under the grant; (b) How the grantee uses the
funds; (c) The total cost of the project; (d) The share of that cost provided from other
sources; and (e) Other records to facilitate an effective audit.”

Academy officials had a difficult time maintaining and accessing records. During its
2002 fiscal year, the Academy used two different financial services companies to
maintain its financial management system. When the second financial services company
started to perform services for the Academy on January 1, 2002, the company received
beginning accounting balances from the prior financial services company. The second
financial services company made adjustments to these beginning balances because some
transactions were not properly recorded. In an attempt to provide us with complete and
accurate accounting records, Academy officials worked with the second financial
services company and had the company make additional adjustments to the Academy’s
accounting records. Despite its efforts during our audit, the Academy could not provide
us with accounting records and related documentation that fully showed how it used its
PCSP funds. The Academy could not provide us with documentation to fully show how
it used $148,440 in PCSP funds because the Academy did not have written policies and
procedures in place that would provide reasonable assurance that its accounting records
were reconciled with supporting documentation on a regular basis and accurately
reflected the Academy’s use of ED funds.




2
  We selected large dollar expenses posted for the 2002 fiscal year and/or those with descriptions that were 

vague or inconsistent with the PCSP law. 

3
  Unless otherwise specified, all regulatory citations are to the July 1, 2001, volume. 



                                                      2

Final Audit Report	                                                                 ED-OIG/A05-D0023


Without complete and accurate accounting records and supporting documentation, we
could not determine whether the Academy expended $148,440 of PCSP funds for the
intended purposes.

Recommendations

We recommend that the CFO, in conjunction with the Deputy Under Secretary for OII,
instruct the Academy to

1.1 	      refund $148,440 to ED; and

1.2 	      develop and implement policies and procedures for (a) regularly reconciling the
           amount of PCSP funds received with the amount spent and (b) maintaining
           documentation sufficient to support its use of all PCSP funds.

                                           BACKGROUND

The purpose of the PCSP is to provide grants for the planning, design, and initial
implementation of charter schools created by members of the local community. Grants
may be made for a period of up to three years. Funds may be used to plan and design the
education program of the charter school and evaluate the effects of charter schools.

Charter schools are governed by the charter school legislation enacted in the Elementary
and Secondary Education Act of 1965, as amended by the Improving America’s Schools
Act of 1994, Title X, Part C, Section 10304(f)(3), and the Charter School Expansion Act
of 1998.4 Charter schools that receive a grant directly from the federal government must
also adhere to regulations listed in 34 C.F.R. Parts 75, 82, and 99.

The Academy received its charter from the Arizona State Board for Charter Schools and
opened in August 2001. The Academy applied for a PCSP grant and received its award
from ED on August 10, 2001. The grant provided the Academy with startup funding for
a three-year period. For its 2002 fiscal year, the first year of funding, the Academy
received $150,000.

                        OBJECTIVE, SCOPE, AND METHODOLOGY

The objective of our audit was to determine if the Academy expended ED funds
according to the law and applicable regulations. Our audit covered the award ED made
on August 10, 2001, for $150,000 and costs charged to the PCSP grant for the 2002 fiscal
year.

To accomplish our objective, we

• 	 interviewed Academy personnel and third party financial services providers hired by
    the Academy;

4
    The law was amended by the No Child Left Behind Act of 2001, Title V, Part B.


                                                     3
Final Audit Report	                                                      ED-OIG/A05-D0023


• 	 obtained and reviewed accounting records;
• 	 judgmentally selected 4 expenses totaling $25,350 posted prior to December 31,
    2001, and 2 expenses totaling $3,112 posted after December 31, 2001. We selected
    large dollar expenses posted for the 2002 fiscal year and/or those with descriptions
    that were vague or inconsistent with the PCSP law; and
• 	 reviewed a purchase order, invoice, and canceled check the Academy used to justify
    one expense paid with PCSP funds.

As part of our audit, we relied on computer-processed data contained in the Academy’s
accounting records. We could not determine the reliability of this data because the
Academy provided us with multiple versions of its computerized accounting records that
showed it spent different amounts of PCSP funds for its 2002 fiscal year. In addition, the
Academy was unable to provide us documentation that would support its use of PCSP
funds. However, we used the computerized accounting records for the purposes of our
audit because it was the only information provided that showed how the Academy used
PCSP funds.

We performed our audit between December 2002 and July 2003. We visited the
Academy on December 9, 2001, and discussed the preliminary results of our audit with
Academy officials on March 27 and April 17, 2003.

Our audit was performed in accordance with generally accepted government auditing
standards appropriate to the scope of audit described above.

                      STATEMENT ON MANAGEMENT CONTROLS

As part of our audit, we did not assess the adequacy of the Academy’s management
controls applicable to all ED awards because this step was not necessary to achieve our
audit objective. Instead, we relied on our testing of the Academy’s compliance with the
law and applicable regulations. Our testing disclosed material weaknesses in the
Academy’s management controls over ED awards. The Academy did not have written
policies and procedures in place to provide reasonable assurance that its accounting
records were reconciled with supporting documentation on a regular basis and accurately
reflected the Academy’s use of PCSP funds. This weakness is discussed in the AUDIT
RESULTS section of this report.

                           ADMINISTRATIVE MATTERS

Statements that managerial practices need improvements, as well as other conclusions
and recommendations in this report, represent the opinions of the Office of Inspector
General. Determinations of corrective action to be taken will be made by the appropriate
ED officials.

If you have additional comments or information that you believe may have a bearing on
the resolution of this audit, you should send them directly to the following ED officials,
who will consider them before taking final action on the audit.



                                             4
Final Audit Report                                                      ED-OIG/A05-D0023



                      Jack Martin, Chief Financial Officer
                      Office of the Chief Financial Officer
                      U.S. Department of Education
                      400 Maryland Avenue, SW, Room 4E313
                      Washington, DC 20202

                      Nina Shokraii Rees, Deputy Under Secretary
                      Office of Innovation and Improvement
                      U.S. Department of Education
                      400 Maryland Avenue, SW, Room 4 W317
                      Washington, DC 20202

It is ED's policy to expedite the resolution of audits by initiating timely action on the
findings and recommendations contained therein. Therefore, receipt of your comments
within 30 days would be greatly appreciated.

In accordance with the Freedom ofInformation Act (5 U.S.C. §552), reports issued by
the Office of Inspector General are available to members of the press and general public
to the extent information contained therein is not subj ect to exemptions in the Act.


                                              Sincerely,


                                            ~12lbJ~
                                        /b'- Richard J. Dowd
                                              Regional Inspector General
                                              for Audit




                                              5
